CERTIFICATE OF LENGTH

I certify that this PETITION FOR A WRIT OF CERTIORARI was prepared by
Petitioner using Google Docs, which reports that it contains a total of 8,100 words.

I declare under perjury that the forgoing is true and correct.

DATED AND MAILED: July 20, 2021, approximately one week after receiving the orders per
petitioners request to the Ninth Circuit Court of Appeals. Petitioner sent a petition for writ by
U.S. mail by air with signature request.

Respectfully submitted by:

nupkufa/,&)nm.P/W
ima
Audrey L. Kirwier, Petitioner, pro se
'73iT^>'

/

P.O. Box 1493
Carmel, CA 939321
843-754-1543
audreykimnerl 0@gmail.com

